INDEX TO APPENDICES
Appendix A: Orders & Opinion Issued by Court of Appeals Fifth District of Texas at
Dallas
Exhibit 1'DENY
Appendix B: Trial Court Orders
Exhibit 2Appendix C: Texas Supreme Court Order
Exhibit 3-DENYReview
Exhibit 4-DENY'- Motion for Rehearing
Appendix D:
Exhibit 5^ NAACP Addresses Important Issues to facilitate the Discussion
Regarding Proposed Changes for Selecting Memers of Texas’ Judiciary In the
Aftermath of the George Floyd Tragedy
Exhibit 6: Henry Wehrmann, Attorney for DFW Airport, sponsor for Trial Court
Judge Bonnie Goldstein
Exhibit 7• Texas Judiciary Campaign Contribution Records from non-partisan, non­
profit, FollowTheMoney.org

Page 49 of 70

Appendix A- Orders & Opinion Issued by Court of Appeals Fifth District of Texas at
Dallas

Page 50 of 70

Exhibit l -'DENY

Interlocutory Appeal_P2Jurisdiction

Page 51 of 70

Affirmed and Opinion Filed August 29, 2019

In The

Gumrt nf Appeals
ififtlt Bistrtcf itf utesas at Ballast
No. 05-18-00675-CV
RUTH TORRES, Appellant
V.
DALLAS/FT WORTH INTERNATIONAL AIRPORT, Appellee
On Appeal from the 44th Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-16-08711

MEMORANDUM OPINION
Before Justices Myers. Osborne, and Nowell
Opinion by Justice Myers
Appellant Ruth Tones files this interlocutory appeal of the trial court’s order granting
Dallas-Fort Worth International Airport Board (DFW)’s plea to the jurisdiction. Torres brings six
issues on appeal. Four of her issues question DFW’s defense of governmental immunity and
whether it was waived. Torres’s fifth issue argues she is entitled to a remedy under the Uniform
Declaratory Judgments Act. Her sixth issue avers that DFW’s “appeal to the jurisdiction” stayed
all proceedings and that the trial court erred by continuing to issue orders after jurisdiction was
questioned. We affirm die trial court’s grant of the plea to the jurisdiction .
BACKGROUND
The underlying dispute in this case concerns a contract in which Tones w*as to provide
human resources consulting services to Pursuit of Excellence (POE), a corporation that contracted
with DFW to provide airport operations services. DFW operates Dallas/Fort Worth International

Interlocutory Appeal_P2Jurisdiction

Page 52 of 70

Airport. See TEX. TRANSP. CODE §§ 22.074(c). (d), On July 20. 2016, POE filed suit against Torres
for breach of contract, breach of fiduciary duty, misappropriation of trade secrets, unjust
enrichment, tortious interference with contract and business relationships, and commercial
disparagement. Tones filed an answer, denying the allegations and asserting counterclaims against
POE. She also added third-party claimants, including DFW, On May 14, 201S. DFW filed a plea
to the jurisdiction, asserting governmental immunity from tort and contract claims. Tones filed an
answer, and DFW filed a reply to that answer. On June 4. 201S. the trial court signed an order
panting DFW's plea to the jurisdiction. Torres filed a notice of appeal challenging that order.
among other orders. We ordered Tones to file a brief in this case limited to the trial court's order
granting DFW’s plea to the jurisdiction. We determined that we lack jurisdiction over numerous
issues raised in Torres's notice of appeal, and that review of the trial court’s denial of Tones's
motion to dismiss under the TCPA would proceed under a separate case number. Accordingly, we
now review the arguments before us on appeal.
STANDARD OF REVIEW
Both standing to sue and governmental immunity are issues of the trial court’s subjectmatter jurisdiction. Tex. AssTi of Bus. v. Tex. Air Control Bd., S52 S.W.2d 440, 443 (Tex. 1993)
(standing is a component of subject-matter jurisdiction): Tex. Dep't of Parks & Wildlife v.
Miranda. 133 S.W.3d 217. 225-26 (Tex, 2004) (governmental immunity from suit implicates trial
court's subject matter jurisdiction). Subject-matter jurisdiction is never presumed and cannot be
waived. Tex. Ass 'n ofBus.. 852 S.W.2d at 443-44. Whether a court has subject-matter jurisdiction
is a question of law, Miranda. 133 S.W.3d at 226.
We review the trial court's ruling on a plea to the jurisdiction under a de novo standard of
review. Town of Fainien' v. Lander, 252 S.W.3d 853. S56 (Tex, App.—Dallas 200S, no pet.).
When a plea to the jurisdiction challenges the pleadings, we look to whether the plaintiff has
-2-

Interlocutory Appeal_P2Jurisdiction

Page 53 of 70

alleged facts that affirmatively demonstrate the court's jurisdiction to hear the case. Miranda, 133
S.W.3d at 226.
When a plea to the jurisdiction challenges the existence ofjurisdictional facts, we consider
relevant evidence submitted by the parties when necessary to resolve the jurisdictional issues
raised. Id. at 227. This standard mirrors the summary judgment standard under rule 166a(c). Texas
Rules of Civil Procedure, and places the btuden on the plaintiff to allege facts that affirmatively
demonstrate the trial court's jurisdiction. City of Dallas v. Hughes. 344 S.W.Sd 549, 553 (Tex.
App.—Dallas 2011. no pet.) (citing Miranda. 133 S.W.Sd at 227-28). Once the plaintiff has done
so, the government entity must meet the summary judgment standard of proof to support its
contention that the trial court lacks subject-matter jurisdiction. Id. Die plaintiff must then show
that a disputed fact issue exists. Id. If the relevant evidence fails to raise a fact question or is
undisputed

on the jurisdictional issue, we determine the plea

as

a

matter of

law. Id. (citing Miranda, 133 S.W.Sd at 228).
DISCUSSION
I.

The Operation of DFW Airport is a Governmental Function as a Matter of Law

In her first issue. Tones contends the trial court “erred or abused its discretion” in granting
DFW’s plea to the jurisdiction. She argues that by providing evidence in response to DFWss plea
to the jurisdiction, she created a fact issue, obligating the trial court to deny the plea.
DFW is a special purpose governmental entity. Dallas/Fort Worth Int‘1Airport Bd. v.Ass'n
of Taxicab Operators, USA. 427 S.W.3d 547. 45S (Tex. App.—Dallas 2014. pet. denied). Diat
status affords it governmental immunity as a matter of law. precluding the existence of the fact
issue Torres alleges. See Dallas/Fort Worth Int’l Airport Bd. v. Vizant Techs., LLC, 576 S.W. 362,
367 (Tex. 2019). We conclude Torres has not demonstrated error that would allow jurisdiction
over DFW. See id. We overrule Torres's first issue.
-3-

Interlocutory Appeal_P2Jurisdiction

Page 54 of 70

Torres’s second, third, and fourth issues argue that DFW waived its immunity in this case.
In her second issue. Tones contends governmental immunity is not applicable in this case because
DFW was performing proprietary rather than government functions. She directs us to section
101.0215(a) of the Texas Tort Claims Act. which she contends provides a basis for waiver.
However, the Texas Supreme Court has held the functions enumerated under section 101.0215(a)
of the Tort Claims Act are governmental functions as a matter of law. See City of White Settlement
v. Super Wash, Inc., 198 S.W.3d 770. 777 (Tex. 2006). The legislature has declared that the
“maintenance, operation, [and] regulation” of an airport and the “exercise of any other power
granted” for that purpose, whether exercised “severally or jointly” by local governments, “are
public and governmental functions, exercised for a public purpose, and matters of public
necessity.” Vizant Techs., 576 S.W. at 367; TEX. TRANSP. CODE § 22.002(a); see also TEX. Civ.
PRAC. & Rem. CODE § 101.0215(a)(10) (listing “airports” as a governmental function under the
Tort Claims Act). Because the operation of DFW Airport is a governmental function as a matter
of law. immunity applies.
Tones argues that, “sovereign immunity is waived for adjudicating a claim for breach of
contract” under TEX. LOC. GOV’T CODE § 271.152. Although section 271.152 provides for the
waiver of immunity in certain cases, that waiver is not absolute. Under section 271.152. the waiver
of immunity is “subject to the terms and conditions of this subchapter.” TEX. LOC. GOV’T CODE
§ 271.152; Zachry Constr. Coip. v. Port of Houston Auth. Of Harris Cty., 449 S.W.3d 98, 108
(Tex. 2014). The waiver applies only to (1) “a written contract stating the essential terms of the
agreement for providing goods or services to the local governmental entity that is properly
executed on behalf of the local governmental entity,” and (2) limits damages to amounts due
“under the contract” plus attorney fees and interest. See TEX. LOC. GOV’T CODE §§ 271.151(2)(A),
271.153(a)(1). Crucially, Torres did not contract with DFW. Her pleadings demonstrate that DFW
-4-

Interlocutory Appeal_P2Jurisdiction

Page 55 of 70

contracted with POE, but it did not contract with Tones. Accordingly, Toires cannot enforce the
waiver found in section 271.152.
Within her second issue. Torres also alleges DFW is liable to her for its “failure to comply
with Texas Open Meetings Act [sic], Public Information Act [sic]. Texas Commission on Human
Rights Act [sic], Texas Local Government Code chapters 252. 2156 and 252 [sic], Prompt Pay Act
[sic].” These claims were not contained in Torres's 2nd Amended Counterclaim. Accordingly,
they are not properly before this Court and thus leave nothing for our review.
We overrule Torres’s second issue.
In her third issue, Toires contends DFW waived immunity under section 101.0215 and is
liable for “damages arising from proprietary functions such as DFW’s issuance of contract to
POE for staffing services.” As discussed supra, this is incorrect, as DFW ’s actions at issue are
governmental functions as a matter of law. See Vizant Techs., 576 S.W. at 367. We overrule
Torres’s third issue.
In her fourth issue. Tones asks this Court to consider whether DFW waived its immunity
by “issuing contract while violating or potentially violating: TOMA, PIA, Texas Gov’t Code
Chapter 252, Affordable Care Act. Family Medical Leave Act. its Business Ethics Policy and/or
SBEAV/M/DBE Vendor Program?” These claims were not raised before tire trial court.
Accordingly, we may not consider them. See TEX. R. APP. P. 33.1. We overrule Torres’s fourth
issue.
II.

Uniform Declaratory Judgments Act

In her fifth issue, Torres argues she is entitled to a remedy under the Uniform Declaratory
Judgments Act. Tones’s Second Amended Counterclaim did not seek declaratory judgment
against DFW. leaving us nothing to review on this point. See TEX. R. APP. P. 33.1. We overrule
Tones’s fifth issue.

Interlocutory Appeal_P2Jurisdiction

Page 56 of 70

in.

Stay of Proceedings

In her sixth issue. Torres contends DFW’s "appeal to the jurisdiction" stayed all
proceedings and that the trial court erred by continuing to issue orders. She also makes additional
arguments discussing those orders. These arguments are outside the scope of what this Court
requested Torres brief in this appeal. Moreover, she has included no authority or record citation in
support of her questions. We therefore need not address Torres's arguments concerning other
orders. We overrule Torres's sixth issue.
CONCLUSION
We affirm the trial court's grant of DFW's plea to the jurisdiction.

/Lana Myers '
LANA MYERS
JUSTICE
1S0675F.P05

-6Interlocutory Appeal_P2Jurisdiction

Page 57 of 70

Cfcrittf nf Appeals
iftftlx district nf ©fisas at Balias
JUDGMENT
On Appeal from the 44th Judicial District
Court, Dallas Count}1, Texas
Trial Court Cause No, DC-16-08711.
Opinion delivered by Justice Myers,
Justices Osborne and Nowell participating.

RUTH TORRES; Appellant
No. 05-1S-00675-CV

V.

DALLAS/FT WORTH INTERNATIONAL
AIRPORT. Appellee

In accordance with this Court ’s opinion of this date, the judgment of the trial court is
AFFIRMED.
It is ORDERED that appellee DALLAS/FT WORTH INTERNATIONAL AIRPORT
recover its costs of this appeal from appellant RUTH TORRES.

Judgment ent ered this 29th day of August, 2019.

-7-

Interlocutory Appeal_P2Jurisdiction

Page 58 of 70

Appendix B: Trial Court Orders
Exhibit 2

Interlocutory Appeal_P2Jurisdiction

Page 59 of 70

CAUSE NO, DC-16-08711
PURSUIT OF EXCELLENCE, INC,
Plaintiff,
v,
RUTH TORRES,
Defendant,
v.
DALLAS/FORT WORTH
INTERNATIONAL AIRPORT BOARD,
MARK GALVAN, and MARIE DIAZ,
Third-Party Defendants,

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

IN THE DISTRICT COURT

44TH JUDICIAL DISTRICT

DALLAS COUNTY, TEXAS

ORDER GRANTING DALLAS/FORT WORTH INTERNATIONAL AIRPORT
BOARD S PLEA TO THE JURISDICTION
ON THIS DAY came to be heard Dallas/Fort Worth International Airport Board's Plea to
the Jurisdiction, and the Court, having reviewed the pleadings on file and having heard the
arguments of the parties, is of the opinion that the Plea to the Jurisdiction should be and is hereby
GRANTED.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that the claims asserted by
Defendant Ruth Torres against Dallas/Fort Worth International Airport Board in her Second
Amended Counterclaim are hereby DISMISSED WITH PREJUDICE.

SIGNED tills

JH

day of__KjtJU

.,2018.

E PRESIDING
ORDER GRANTING DALLAS/FORT WORTH INTERNATIONAL AIRPORT BOARD'S PLEA TO
THE JURISDICTION - Page 1

Interlocutory Appeal_P2Jurisdiction

Page 60 of 70

Appendix Ct Texas Supreme Court Order
Exhibit 3-JDENYReview
FILE COPY
BE: Case Wo. 19-0940
COA #: 05-18-00675-CV
STYLE: TORRES v. DEW INT'L AIRPORT

DATE: 12/20/2019
TCf: DC-16-08711

Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

MR. HENRY SWEHRMANN
FARROW-GILLESPIE HEATH WITTER LLP
1700 PACIFIC AVENUE, SUITE 3700
DALLAS., TX 75201
* DELIVERED VIA E-MAIL *

Interlocutory Appeal_P2Jurisdiction

Page 61 of 70

FILE COPY
RE: Case No. 19-0940
COA #: 05-18-00675-CV
STYLE: TORRES V. DFW INT'L AIRPORT

DATE: 12/20/2019
TC#: DC-16-0'8711

Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

MR. BYRON K. HENRY
SCHEEF & STONE/ L.L.P.
2600 NETWORK BOULEVARD/ SUITE 400
FRISCO/ TX 75034
* DELIVERED VIA E-MAIL *

RE: Case No. 19-0940
COA #: 05-18-00675-CV
STYLE: TORRES v. DFW INT’L AIRPORT

DATE: 12/20/2019
TC#: DC-16-08711

Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

DISTRICT CLERK DALLAS COUNTY
DALLAS COUNTY COURTHOUSE
GEORGE L. ALLEN, SR. COURTS BUILDING
600 COMMERCE, SUITE 103
DALLAS, TX 75202
* DELIVERED VIA E-MAIL *

Interlocutory Appeal_P2Jurisdiction

Page 62 of 70

FILE'COPY
RE: Case No. 19-0940
COA #:. 05-18-00675-CV
STYLE: TORRES v. DFW INT’L AIRPORT

DATE: 12/20/2019
TC#: DC-16-08711

Today the Supreme Court, of Texas denied the. petition
for review in the above-referenced case.

ROTH TORRES
* DELIVERED VIA E-MAIL *

RE: Case No. 19-0940
COA #: 05-18-00675-CV
STYLE: TORRES V. DFW INT'L AIRPORT

DATE: 12/20/2019
TC#: DC-16-08711

Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

MS. ANDREA K. BOURESSA
SCHEEF & STONE, LLP
2600 NETWORK BLVD, SUITE 400
FRISCO, TX 75034-6010
* DELIVERED VIA E-MAIL *

Interlocutory Appeal_P2Jurisdiction

Page 63 of 70

FILE COPY

RE: Case No. 19-0940
COA. #: 05-18-00675-CV
STYLE: TORRES V. DFW INT'L AIRPORT

DATE: 12/20/2019
TCI: DC-16-08711

Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

MS. BRANDY CHAMBERS
CHAMBERS LEGAL PLLC'
P.O. BOX 550663
DALLAS, T'X 75355
* delivered via e-mail

*
RLE COPY

RE: Case No. 19-0940
COA #: 05-18-00 67 5- CV
STYLE: TORRES v. DFW INT'L AIRPORT

DATE: 12/20/2019
TCI: DC-16-08711

Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

MR. JOHN C. SCHEEF III
SCHEEF Sc STONE', L.L.P.
2601 NETWORK BLVD., SUITE 400
FRISCO, TX 75034-6010
* DELIVERED VIA E-MAIL *

Interlocutory Appeal_P2Jurisdiction

Page 64 of 70

FILE COPY
RE: Case No. 19-0940
COA #: 05-18-00675-CV
STYLE: TORRES V. DFW INT'L AIRPORT

DATE: 12/20/2019
TC#: DC-16-08711

Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

MS. ANNA BROOKS
SCBEEF & STONE,, LLP
2600 NETWORK BLVD STE 400
FRISCO, TX 75034-6010
* DELIVERED VIA E-MAIL *
FILE COPY
RE: Case No. 19-0940
COA #: 05-18-00675—CV
STYLE: TORRES V. DFW INT’L AIRPORT

DATE: 12/20/2019
TC#: DC-16-08711

Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

MS. LISA MATE
CLERK, FIFTH COURT OF APPEALS
600 COMMERCE,. SUITE 200
DALLAS, TX 75202-4658
* DELIVERED VIA E-MAIL *

Interlocutory Appeal_P2Jurisdiction

Page 65 of 70

Exhibit 4- DENYMotion for Rehearing

Interlocutory Appeal_P2Jurisdiction

Page 66 of 70

FILE COPY

RE: Case No. 19-0940
COA #: 05-18-00675-CV
STYLE: TORRES V. DFW INT'L AIRPORT

DATE: 2/14/2020
TC#: DC-16-08711

Today the Supreme Court of Texas denied the motion for
rehearing of the above-referenced petition for review.

RUTH TORRES
* DELIVERED VIA E-MAIL *

Interlocutory Appeal_P2Jurisdiction

Page 67 of 70

Additional material
from this filing is
available in the
Clerk's Office.

